                                                                    ..’




Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENliRAL




   MARKETING OF WOUND CARE

           SUPPLIES





                        @ SERVICE$
                   ~+                %.,
               *

          $’
                                           JUNE   GIBBS BROWN
          :.
                              Inspector   General

           s

            %
 #
              %.
               +-+
                        2
                        %’d~~
                                                  OCTOBER 1995
                                                  0EI-03-94-O0791
                         OFFICE OF INSPECTOR           GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by four OIG operating components: the Office of Audit Sefices, the
Office of Investigations, the Office of Civil Fraud and Adminsitrative Adjudicationand the
Office of Evacuation and Inspections. The OIG also informs the Secretary of HHS of program
and management problems and recommends courses to correct them.

                            OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Sefices (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                            OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                  OFFICE OF EVALUATION             AND INSPECHONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
Regional Office under the direction of Robert A. Vito, Regional Inspector General.

PHILADELPHIA REGIONAL STAFF                         HEADQUARTERS STAFF

Linda M. Ragone, Program Aizaijwt                   Stuart R. Wright, Program Specialist

Robert A. Baiocco, Program Anai’yst                 Barbara Tedesco, Technical Support Staff

Cynthia Hansford, Program Assistant                 Brian P. Ritchie, Technical Suppoti Staff

Emily Tseng, Intern                                 Linda Moscoe, Technical Support Staff

Neil Montovani, Intern

Won Jong Oh, Intern



To obtain a copy of this repo~ please cdl the Philadelphia Regional OfKce at (800) 531-9562

                                                                       . -




Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




   MARKETING OF WOUND CARE

           SUPPLIES





                            SERVICEJ
                        #
                   ~+                  Osq
               +

          ~v
                                             JUNE   GIBBS BROWN
          :                                  Inspector   General
          2
           % #
            %$--
                        2
                        %’+J~
                                                    O~OBER      1995
                                                    0EI-03-94-O0791
              EXECUTIVE                          SUMMARY


PURPOSE

This report describes supplier and nursing home practices that can lead to
inappropriate payments for wound care supplies, and examines issues concerning
Medicare beneficiaries’ use of these supplies.

BACKGROUND

Wound care supplies are protective covers or fillers that treat openings on the body
caused by surgical procedures, wounds, or ulcers. The Health Care Financing
Administration (HCFA) reimburses for wound care supplies under Medicare Part A
through its payments to nursing homes and home health agencies and Medicare Part
B through its payment to suppliers. The HCFA broadened its coverage policy on
March 30, 1994, allowing payment for secondary as well as primary dressings and
including wound treatments by non-physicians.

The HCFA contracted four Durable Medical Equipment Regional Carriers
(DMERCS) starting October 1993 to process Part B claims for DME, prosthetics,
orthotics, and supplies including wound care supplies. These DMERCS developed
revisions to their guidelines for wound care and requested comments in January 1995.
These guidelines clarify utilization and medical necessity issues. The effective date for
implementing the revised guidelines is October 1, 1995.

This inspection was conducted as part of Operation Restore Trust, a pilot program
that coordinates Federal, State, and local anti-fraud activity in California, Florida, New
York, Illinois, and Texas. The program will target abuses in home health agencies,
nursing facilities, and durable medical equipment, including wound care supplies.

We collected data from both nursing homes and Medicare beneficiaries for this report.
We selected a stratified random sample of 420 nursing homes from HCFA’S Online
Survey Certification and Reporting system and a stratified sample of 469 beneficiaries
who received Medicare-reimbursed wound care supplies between June 1994 and
February 1995.

FINDINGS

Musing homes and physiciam detemine which patients need supplies but som         suppliers
determine the anumnt providld

While most nursing facilities indicate that physicians or nursing staff initially identify
that a patient needs wound care supplies, in 23 percent of nursing homes the supplier
representative decides the number of supplies to be delivered in a given month.



                                             i


                                                                                             —
                                                                              .-




Wound care supplies are fhquent~ provided in standurd kit form to beneficiaries.

More than half of Medicare wound care recipients reported they received their

supplies in kit form. Similarly, almost half (45 percent) of nursing homes using

Medicare-reimbursed wound care supplies received some or all of these supplies in kit

form. Under the new DMERC medical policy to be implemented in October of 1995,

supplies provided in these standardized kits would not be covered.


Some supplierxprovidk inducements to musing homes and beneJiciwies.

Thirteen percent of nursing homes have been offered inducements in exchange for
allowing suppliers to provide wound care products to patients in their facility.
Information from nursing homes and beneficiaries indicates that some suppliers may
be routinely waiving the Medicare beneficiary coinsurance, a practice that violates the
Medicare statutes.

Benefkiaries may not be receiving or using all of the wound care supplies reimbumd by
Medicare.

Medicare may be reimbursing for wound care supplies that are not needed by
beneficiaries since both nursing homes and beneficiaries report not always using all the
supplies they receive. In addition, many nursing homes have no method of ensuring
that supplies are used by the beneficiary for which Medicare was billed. Medicare and
beneficiaries may be paying for wound care supplies that are not used specifically by
them.

CONCLUSION

The information in this report is intended to add to the body of knowledge being
developed concerning the use of wound care supplies for Medicare beneficiaries. It is
being issued with two other reports on this subject. These products are part of a
broader strategic effort designed to assess payments made on behalf of Medicare
beneficiaries in nursing homes. Information from previous OIG reports coupled with
the current findings on wound care provide continued support for the effort by HCFA
to require the bundling of semices in nursing homes. This solution would emphasize
nursing homes’ responsibilities for management of patient care and provide incentives
for the appropriate use and prudent purchase of supplies, since it would be nursing
homes and not suppliers who would receive Medicare reimbursement for these
supplies.

COMMENTS

We solicited and received comments on our draft reports from HCFA and other
concerned organizations. The organizations that provided us with responses were the
Health Industry Distributors Association (HIDA), the Health Indust~ Manufacturers
Association (HIMA), and the National Association for the Support of Long Term


                                             ii
                                                                             .- .




Care (NASL). However, I-HMA chose not to provide specific comments on this
report, The full text of the comments from HCFA and the outside organizations can
be found in a companion report entitled Questionable Medicare Payments for Wound
Care Supplies (OEI-03-94-00790).

The HCFA agreed with the recommendations        in the companion report, Questionable
Medicare Payments for Wound Care Supplies.     In addition, HCFA responded that they
have developed a legislative proposal to require bundling of services, including wound
care supplies, in Medicare and Medicaid payments to nursing homes. They believe
that this may seine as an incentive for nursing homes to more closely monitor the use
of wound care supplies.

The outside organizations commented that they strongly support HCFAS expansion of
the national coverage policy for wound care supplies and that no reduction in the
current scope of the benefit should be considered. They believe that the DMERCS’
delay in implementing wound care policies and utilization standards after HCFAS
expansion of the policy was the primary factor in creating an environment ripe for
potential abusive practices. Both HIDA and NASL expressed concerns that our
wound care surveys were misleading and biased and unlikely to provide meaningful
data. Nevertheless, they both stated that the results of the surveys show that the
majority of suppliers and facilities act responsibly in operating their businesses. The
HIDA also responded that we incorrectly implied that legitimate market-driven
supplier services were inappropriate.

While we believe the initial lack of DMERC policies without utilization standards for
wound care supplies played a part in allowing abuses to occur, we do not believe it to
be the entire cause of abusive supplier practices. Even without specific utilization
standards, suppliers are supposed to be able to support the medical necessity of the
wound care products they deliver.

In response to HIDA and NASL concerns that our surveys for this report were
misleading and biased, we believe that the questions in our survey were appropriate in
their wording. The Medicare beneficiary survey was designed to be easily understood
and completed by the sample population. We do not feel the questions were
misleading to beneficiaries nor were they intentionally designed to solicit biased or
untrue information. The nursing home survey was designed to obtain comparable data
from a large number of respondents on a wide range of issues relating to wound care.

In response to HIDA’s concerns that we were critical of legitimate services that
supplier perform on behalf of their customers, we believe that we presented the
information in a fair manner and did not draw conclusions that could not be
adequately supported. We are by no means concluding in this report that all suppliers
are involved in questionable practices. In fact, we highlighted in our companion
report on questionable Medicare payments that three-quarters of the excessive
payments we identified in our sample were made to only 7 percent of all suppliers in
the sample. However, we do believe that some of the practices reported by nursing

                                             ...
                                             111
                                                                           .- -




homes and beneficiaries such as determining the number of supplies to be delivered
and routinely waiving coinsurance amounts raise concerns about the legitimacy of
certain semices that suppliers provide.




                                          iv
                                                                                                              .-




                     TABLE                       OF CONTENTS
                                                                                                                    PAGE


EXE~              s ~y                  . .   ...””””””””””””””””””””                       ““””””””””””””””1
                                                                                                                              .1

mC)DumON                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                                7

~lNGS           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                   7

 �Nursing  home and supplier control over provision of supplies . . . . . . , . . . . . . . .
                                                                                                       . . . . . . 8

 �Wound care tits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                         . . . . . 9

 �upplieri nducements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                                10

  �Beneficiaries     notreceiting           or using all supplies . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                            . 12

CONCLUSION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


 APPENDI=

                                                                                                                              A-1

 A   Nursing FacilitY Suney Instmment and Response Rates                                   . . . . . . . . . . . . . . . .

                                                                                                                               B-1

 B: Beneficia~       Survey Instrument and Response Rates . . . . . . . . . . . . . . . . . . . .

                        INTRODUCTION

PURPOSE

This report describes supplier and nursing home practices that can lead to
inappropriate payments for wound care supplies, and examines issues concerning
Medicare beneficiaries’ use of these supplies.

BACKGROUND

Wound care supplies are fillers or protective covers that treat openings on the body
caused by surgical procedures, wounds, or ulcers. Wound covers are flat dressing
pads. Wound fillers are dressings placed into open wounds to eliminate dead space,
absorb exudate, or maintain a moist wound surface. The Health Care Financing
Administration (HCFA) reimburses for wound care supplies under the Medicare Part
B program’s surgical dressing benefit. The coverage policy for these supplies is found
in section 2079 of the Medicare Carriers Manual. The HCFA contracts four Durable
Medical Equipment Regional Carriers (DMERCS) to process durable medical
equipment claims including wound care supplies. The DMERCS issue their own
guidelines to clarify their coverage policy.

Medicare Part B Allowances for Wound Care Supplies 1990-1994

There were significant changes in wound care activity between 1990 and 1994.
Medicare Part B allowances were as low as $50 million in 1992, peaked in 1993 at
$132 million, then dropped to $98 million in 1994. The number of beneficiaries that
annually received these supplies ranged from 86,600 in 1993 to as high as 273,300 in
1991. Allowances per beneficiary varied from $199 in 1990 to $1,526 in 1993.
Between 1993 and 1994 the number of Medicare beneficiaries that received wound
care supplies increased 47 percent.

In 1994, 61 percent of the average allowance per beneficiary was for specialty
dressings. Medicare fee schedule amounts for specialty dressings are as high as $35
for large hydrogel wound covers. Eleven of the specialty wound care products are
reimbursed by Medicare at over $10. Prior to 1992, Medicare reimbursed for wound
care supplies primarily in a single kit payment. These kits were a compilation of
wound care supplies and were reimbursed at $8 each in 1992. Billing for kits as one
product was disallowed in 1992. However, component supplies contained in a kit can
still be billed as individual products. As a result, the number of billings for wound
care supplies has increased over six times from 13 million in 1991 to 81 million in
 1994. The table on the next page summarizes surgical dressing activity for calendar
years 1990 through 1994.




                                            1



                                                                          —.           __. -—
                                                                                  ,-




Table 1. Wound Care Supply Activity      1990-1994



   Allowances      $53 million   $87 million   $50 million   $132 million       $98 million
  Beneficiaries      266,400       273,300       117,300        86,600            127,300
 Per Beneficiary      $199          $317          $423          $1,526             $769
                                                                            1                  II
 No. of Supplies       NJA        13 million   45 million     69 million        81 million     ~

l%e HCFA Broa&ns its Coverage Poliqv for Wound Care Supplies

On March 30, 1994, HCFA expanded its coverage policy for wound care supplies.

The new policy provides coverage for “primary and secondary dressings required for

the treatment of a wound caused by, or treated by, a surgical procedure that has been

performed by a physician or other health care professional.” Primary dressings are

therapeutic or protective coverings applied directly to wounds or lesions either on the

skin or caused by an opening to the skin. These include alginate, foam, specialty

absorptive, hydrogel, hydrocolloid, and composite dressings. Transparent film and

contact layers also seine as primary dressings. Secondary dressings serve a therapeutic
or protective function and typically are needed to secure a primary dressing. Items
such as adhesive tape, roll gauze, and bandages are examples of secondary dressings.

l%e I?ior Coverage Policy Wm More Restrictive

The HCFA national policy and the DMERCS’ policies prior to March 30, 1994 were
more restrictive. Stringent requirements were placed on the type of dressings, length
of treatment, cause of wound, type of provider, and medical documentation.       The
DMERCS’ policy before the expansion of the national policy covered only primary
dressings resulting from a surgical procedure for usually no more than 2 weeks. This
policy stated that “surgical dressings for closed incisions without drainage would rarely
be medically necessary for more than 1 week” and “when an ulcer, traumatic wound,
or burn has had sharp debridement, it will be considered a surgical wound for no
more than 2 weeks from the date of debridement.”

Prior to March 30, 1994, the HCFA national policy would allow dressings to be
covered for treatment of wounds that resulted from sharp debndement (e.g., scalpel,
laser) performed only by physician. The DMERC local policies stated that dressings
for other types of debridement (e.g., mechanical, chemical, autolytic) were not
covered. Wound care suppliers were required by DMERCS to submit a certificate of
medical necessity to document the need for the products. After the policy change in
March 1994, this was no longer required. The table on the following page compares
the wound care supply policy before and after March 30, 1994.




                                                                                              .—
                                                                                   .“




Table 2. Comparison of Wound Care Supply Coverage Policies




IIOnly primary    dressings
                                            ,
                                                Primary and secondary dressings
                                                As long as medically necessary
                                                                                         I
  Time limits on medical necessity
  Dressings for sharp debridement    only       Any type of debridement
  Limited to physician treatments               Physician and non-physician treatments
  Certificate of Medical Necessity              Certificate of Medical Necessity
  required                                      not required

Carrier Proce.rszkgof Wound Care Supplies

In June 1992, HCFA issued a final rule designating four DMERCS to process all
claims for durable medical equipment, prosthetics, orthotics, and supplies including
wound care supplies. The four carriers are the MetraHealth Insurance Company
(DMERC A), AdminaStar Federal (DMERC B), Palmetto Government Benefits
Administrators (DMERC C) and Cigna Healthcare (DMERC D). In October 1993,
HCFA began the transition to the DMERC processing of wound care supply claims.
During 1994, 56 carriers also processed wound care claims before the transition to
DMERCS was complete. During the transition, these carriers did not utilize the
DMERC policies; they carriers used their own local policies to process claims.

The DMERC3 Implement a Fee Schedule and Intmdke             New Codes

Starting in June 1994, reimbursements for wound care supplies were based on a fee
schedule. The DMERCS introduced over 60 codes for wound care products to
implement the fee schedule. Prior to June, less than 20 codes were used to identify
and reimburse wound care supplies. The DMERCS granted a grace period for all but
two old codes submitted through October 1, 1994. During the grace period the
DMERC would crosswalk the old code to the appropriate new code.

The DMERG        Issue Dn@ Policy to Clar(ij Wound Care Coverage

Each DMERC, working with HCF~ developed a policy to clari~ the coverage of the
wound care benefit. Included in these guidelines are definitive utilization and medical
necessity parameters. In addition, modifiers to the codes have been added to identify
the number of wound sites being treated. In January 1995, the DMERCS solicited
comments on these guidelines. After evaluating the comments, the DMERCS issued a
revised policy to be effective October 1, 1995.

 This change was initiated in part as a response to organizations in the wound care
 community that expressed the need for clarification. For example, the Health kdustry



                                                3



                                                                             —— —
                                                                            .   .’




Distributors Association in cooperation with the National Coalition for Wound Care,
the National Association of Retail Druggists, and the National Association for the
Support of Long Term Care developed consensus recommendations for improving the
Medicare wound care policy. These changes were recommended prior to the release
of the proposed changes in January 1995.

l%e General Accounting ~ce    Discloses Wound Care Supply Abuses

The General Accounting Office (GAO) issued a final report, Medicare Excessive
Payments for Medical Supplies Continue Despile Improvements    (HEHS-95-1 71), in
August 1995 concerning payment controls for Medicare expenditures of durable
medical equipment with an emphasis on wound care supplies. The GAO found a
“lack of system wide controls” which led to abuse in both Part A and Part B. For
example, the number of dressings billed per beneficiary was nearly three times higher
under 29 new wound care codes. They attribute this activity to the absence of a
clearly defined policy.

Operation Restore Tlust Tagets Heakh Care Abuse in Five Stat&

Operation Restore Trust is a health care anti-fraud demonstration project developed
within the U.S. Department of Health and Human Services by the Office of Inspector
General, the Health Care Financing Administration, and the Administration on Aging.
Its aim is to coordinate Federal and State resources to attack fraud and abuse in
home health agencies, nursing facilities, and durable medical equipment, including
wound care supplies. The project’s initial focus will be in California, Florida, New
York, Illinois, and Texas.

METHODOLOGY

For the purposes of this report, we collected data from both nursing homes and
Medicare beneficiaries.

Numing Home Sampk

To determine how suppliers market wound care supplies and how nursing homes
handle the provision of these supplies, we selected a stratified random sample of 420
skilled nursing facilities and nursing homes from HCFA’S Online Survey Certification
and Reporting (OSCAR) system. The system contains every nursing home that is
certified to receive Medicare or Medicaid funds. We decided to sample nursing
homes from the OSCAR system that had a total size of 60 beds or more. This gave
us a universe of 12,878 nursing homes from which we selected our sample.

We selected a stratified sample so that we could provide more focused information on
five States: California, Florida, Illinois, New York, and Texas. These States are
currently being targeted by Operation Restore Trust. We stratified our sample into six
groups including the five States and all other remaining states. We sampled a total of


                                           4
                                                                             .-




420 nursing homes; the number of nursing homes from each stratum is shown in the
table below.


               Strata            Nursing Home                   Sample
                                   Universe
 California
                           931                        60
 Florida
                              565                        60
 Illinois
                             700                        60
 New York
                             584                        60
 Texas
                                964                         60
 Other States
                        9,134                       120
               Total                 12,878                       420

We sent identical questionnaires to the administrators of the 420 nursing homes.
Surveys were returned by 315 nursing homes giving us an overall response rate of 75
percent. We chose to project responses only to the responding universe and not to
the total universe of 12,878 nursing homes. Responses from the 315 nursing homes
were weighted by stratum and projected only to the responding universe of 9,770
nursing homes.

In order to accurately project responses to the total universe, we would have had to
perform an analysis of non-respondents to evaluate the characteristics of nursing
homes who chose not to respond. Because we knew very little about the non-
responding nursing homes, we decided to use the more conservative responding
universe. The survey instrument, nursing home responses, and an accompanying
explanation of the survey results appear in Appendix A.

Benej%iq       Samplk

To collect information from Medicare beneficiaries who used wound care supplies, we
sampled beneficiaries for whom Medicare Part B paid at least $20 for wound care
supplies between June 1994 and February 1995. We selected a stratified random
sample drawn from the National Claims History 1 percent sample file. This file
includes allowed claims paid by Medicare in 1994 and the early part of 1995. As
selection criteria, we used 85 billing codes which represent the types of supplies used
by beneficiaries requiring wound care supplies.

After we removed deceased individuals identified through information in HCFA’S
Enrollment Database, we found that 624 beneficiaries met our selection criteria in the
1 percent sample file.




                                              5

                                                                               .-




We stratified our sample into the following two groups: individuals with $1,000 or
more allowed dollars for wound care supplies and individuals with $20 to $999 of
allowed dollars for wound care supplies between June 1994 and February 1995. We
sampled 469 beneficiaries; the number of beneficiaries from each stratum is presented
in the table below.


           Strata              Estimated Universe                Sample
       Over $1,000                    16,900                       169
       Under $1,000                   45,500                       300
           Total                      62,400                       469

We mailed questionnaires to 469 beneficiaries across the country, we received 238
responses for a response rate of 51 percent. The responses from these beneficiaries
were weighted by stratum and projected to 31,871 beneficiaries nationwide. As was
the case in the nursing home sample, we chose to project the beneficiary responses to
the responding universe and not the total universe of beneficiaries (62,400) receiving
Medicare-reimbursed supplies. We selected the more conservative approach, since we
did not do an analysis of non-responses and therefore could not determine if there
would be bias among that group. A sample of the suvey instrument, confidence
intervals, and beneficiary responses appear in Appendix B.

This report is one of three reports concerning Medicare payments for wound care
supplies. A second report, Questionable Medicare Payments for Wound Care Supplies
(OEI-03-94-00790),  identifies questionable billing practices for wound care suppliers
under Medicare Part B. The third report, Wound Care Supplies: Operahon Restore
Trust Data (OEI-03-94-00792),   provides more detailed billing and marketing
information on wound care supplies in the five Operation Restore States.

This inspection was conducted in accordance with the Quali~ Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            6

                                                                               . -




                                FINDINGS


NURSING HOMES AND PHYSICIANS DETERMINE WHICH PATIENT’S NEED
SUPPLIES BUT SOME SUPPLIERS DETERMINE                  THE AMOUNT’ PROVIDED.

Nursing home responses indicate that they and not suppliers are responsible for
determining if a patient needs wound care supplies. More than two-thirds of nursing
homes report that nurses initially identify a patient’s need for wound care supplies.
Thirty-five percent indicate that physicians also provide the initial identification.

However, in some nursing homes, suppliers are determining the amount of supplies
ordered for patients. While most nursing facilities indicate that physicians or nursing
staff initially identify that a patient needs wound care supplies, in 23 percent of
nursing homes the supplier representative decides the number of supplies to be
delivered in a given month.

Suppliers have also attempted to determine which nursing home patients need wound
care supplies. Almost one-third (32 percent) of nursing homes had suppliers attempt
to determine which Medicare-eligible patients qualified for wound care supplies.

Wound care suppliers have requested to review medical records in 17 percent of
nursing homes. These homes report that the reason suppliers give for review records
is to determine the eligibility of patients, view the physician orders, record treatment
progression, and to gather supporting documentation for billing purposes. In addition
to reviewing patient medical records, suppliers have suggested to 17 percent of nursing
homes how medical records should be documented to support the need for wound
care supplies.

More than any other method, nursing homes become aware of new wound care
products through supplier representatives. Sixty-seven percent of nursing homes
receive their information about advances in wound care treatment from supplier
representatives.   Forty-five percent of nursing home also have received information
from training sessions or conferences offered by wound care suppliers. Nursing home
staff also become aware of new products through medical literature and training
provided by local medical and nursing associations. Additional avenues for education
identified by nursing homes include corporate training staffs, enterostomal therapist
consultants, and word of mouth among nursing home colleagues.

Seventy percent of nursing homes have had suppliers offer training to their staff
concerning the treatment and care of wounds. Suppliers have provided wound care
specialists or specialty nurses in more than one third of nursing homes (36 percent) to
assist nursing home staff in patient care or in developing a treatment plans. These
specialists have been provided to nearly half of all nursing h~mes (47 percent) which
use Medicare-reimbursed supplies.
                                                                               .-




Thenursing homes offered mixed review of thehelpfu]ness of supplier assistance and

training. One nursing home responded that the nurse consultants sent to review

wounds in the facility have no more “additional training than staff nurses already

employed by home.” Another nursing home said that after a doctor recommended

using a particular wound care supplier for his patient, it was the supplier

representative and not a nurse that came in to see the patient. This particular nursing

home refused to provide the representative with access to the patient “since he was

not a medical person.” However, a third nursing home reported that their “supplier

has been very helpful when called upon for a challenging skin\wound care situation.”


WOUPJD CARE SUPPLIES ARE FREQUENTLY                   PRO~ED         ~ STAND~

KH’ FORM TO BENEFICLMUES.


More than half of Medicare wound care recipients reported they received their

supplies in kit form. Similarly, almost half (45 percent) of nursing homes using

Medicare-reimbursed wound care supplies received some or all of these supplies in kit

form.


Under the new DMERC medical policy to be implemented in October of 1995,

individual supplies provided in these standardized kits would not be covered. The

policy states that “surgical dressings must be tailored to the specific needs of an

individual patient.” The policy goes on to say that “this cannot be accomplished when

dressings are provided as kits or trays containing fixed quantities and/or multiple types

of dressings.”


The DMERC policy defines a surgical dressing kit as a non-individualized,

standardized packaging containing repetitive quantities of dressings not related to the

individual medical needs of a beneficiary, or whose contents have not each been

prescribed for the care of the specific wounds of that beneficiary, or that contain

materials in addition to surgical dressings.


Many of the kits received by the nursing homes in our survey would not be covered if

one applies the DMERC definition of non-individualized, standard surgical dressing or

wound care kit. Almost one quarter (24 percent) of nursing homes reported that the

same basic wound care kit is provided to every Medicare beneficiary requiring wound

care supplies in their facilities. Only 16 percent of nursing homes have asked a

supplier to make changes to their standard kits.


Many of the wound care kits received by nursing homes also contain many materials in

addition to the surgical dressings that Medicare covers. Thereby, these kits would also

be excluded from coverage based on the new DhlERC policy. When asked to provide

the contents of a typical wound care kit, the items most frequently cited by nursing

homes are listed in the table on the top of the next page. The only items in the table

that are covered by Medicare under the wound care benefits are gauze, tape, and

ABD pads (an absorptive specialty dressing).

             1  ITEMS MOST FREQUENTLY INCLUDED
                       IN WOUND CARE KITS




Suppliers have provided musing homes with mideading informatiim in regards to wound
care E&

Eleven percent of nursing homes have been incorrectly told by suppliers that Medicare

requires the use of kits when treating a wound. Wound care suppliers in 12 percent of

nursing homes have also suggested that a standard number of wound care kits should

be used per day on patients. Eleven percent of nursing homes have also been

erroneously informed that Medicare will cover routine items such as saline solution if

gauze or specialty dressings are purchased. Medicare does not consider saline solution

a covered item when used for the purposes of moistening dressings or irrigating a

wound.


SOME SUPPLIERS       PROVIDE    INDUCEMENTS        TO NURSING HOMES AND

BENEFICIARIES.


Thirteen percent of nursing homes have been offered inducements in exchange for

allowing suppliers to provide wound care products to patients in their facility.

Seventeen percent of nursing homes with Medicare-reimbursed products have been

offered these inducements. The inducements range from free trial products to

cameras, blenders, and diamond rings.


Suppliers may not be following Medicare regulations with regards to beneficiary

coinsurance. Information from nursing homes and beneficiaries indicates that

suppliers may not be billing beneficiaries for the coinsurance amount. Beneficiaries

are required to pay (unless there is financial hardship) a 20 percent portion of the

costs of their wound care supplies. However, 27 percent of beneficiaries (9,263) did

not pay coinsurance for their wound care supplies nor did they have some other form

of insurance which would have paid the coinsurance amount. In addition, 28 percent

of nursing homes have been told by suppliers that wound care supplies will be

provided to Medicare beneficiaries at no cost to the patient. One nursing home stated

                                                                                    . .




that suppliers’ “main selling point is ‘it won’t cost your facility, or your residents

anything and we’ll handle all the paperwork.’”


The OIG has in the past taken the position that routine waiver of Part B copayments

may be prohibited under fraud and abuse laws. First, routine waiver may constitute a

violation of the Medicare and Medicaid Anti-Kickback provision, 42 U.S.C. s 1320a-

7b(b), if the purpose of the routine waiver is to induce Medicare or Medicaid business.

Second, a provider’s routine waiver of a beneficiary’s obligation to pay may result in

the filing of a Medicare or Medicaid claim that is false in that it misrepresents the

actual amount charged for the item or sefice. Anti-kickback violations and false

claim may be actionable under criminal, civil, and administrative authorities.


Some suppliers appear to specialize in the Medicare market. One-fifth (20 percent)

of nursing homes report that their suppliers provide wound care products only to the

Medicare eligible patients in their facility. In addition, 31 percent of nursing homes

have had suppliers attempt to determine which patients in their facility qualify for

Medicare reimbursement.


BENEFICIARIES MAY NOT BE RECEIVING OR USING ALL OF THE

WO~     CARE SUPPLIES REIMBURSED BY MEDICARE.


Medicare may be reimbursing for wound care supplies that are not needed by

beneficiaries. Eleven percent of beneficiaries reported they used either none or only

some of the wound care supplies they received. Fifteen percent of nursing homes

report that they do not typically use all of the supplies in wound care kits. The items

most frequently cited as not being used are gauze, ABD pads, and tape. These are

also the only items in a standard kit for which Medicare pays.


More than one-quarter of beneficiaries (28 percent) reported they used wound care

supplies on wounds other than those resulting from surgery on pressure ulcers. Some

of these beneficiaries used these wound care supplies for colostomies and catheters

where in certain instances gauze is covered by Medicare. However, other beneficiaries

used wound care supplies for tracheotomies and feeding tubes. These supplies may be

more appropriately covered under Medicare’s tracheotomy or enteral nutrition

benefits than the surgical dressing or wound care benefit. Beneficiaries also reported

using wound care supplies for skin tears and abrasions which should not be covered

under the Medicare wound care benefit.


Many musinghorns have rw method of ensuring that supplies are used by the benejkimy
for which M&&are was billed

The majority of nursing homes indicated that they do not have tracking mechanisms to
ensure that supplies are used only by the specific beneficiary for which Medicare was
billed. In almost half of all nursing homes using Medicare-reimbursed supplies (46
percent), these supplies are not identified or marked for use by specific patients when
delivered. After receiving wound care supplies, 67 percent of nursing homes take


                                               10

                                                                                 . -.




these supplies and store them in a general supply room. However, several of these
nursing homes report that if the supply is sent for a specific beneficiary they will store
them by the patient name in the supply room.

Medicare and beneficiaries may be paying for wound care supplies that are not used
specifically by them. More than one-quarter of nursing homes using Medicare-
reimbursed supplies (26 percent) reported that unused or excess supplies are stored
and used for all patients in the facility. Another 8 percent of nursing homes reported
receiving wound care products from suppliers that they did not order.




                                             11

                                                                              .-




                            CONCLUSION


The information in this report is intended to add to the body of knowledge being
developed concerning the use of wound care supplies for Medicare beneficiaries. It is
being issued with two other reports on this subject. The first report, Questionable
Medicare Payment for Wound Care Supplies, describes trends in utilization before and
after the expansion of Medicare coverage policy for wound care supplies. The second
report, Wound Care Supplies: Operation Restore Trust States, provides more specific
utilization and supplier marketing information for California, New York, Illinois, Texas
and Florida.

These products are part of a broader strategic effort designed to assess payments
made on behalf of Medicare beneficiaries in nursing homes. We have previously
reported on the use of incontinence supplies in nursing homes, nonprofessional
services in nursing homes, and the range of semices and supplies provided to
Medicare beneficiaries in skilled nursing facilities.

Information from these reports coupled with the current findings on wound care
provide continued support for the effort by HCFA to require the bundling of services
in nursing homes. This solution would emphasize nursing homes’ responsibilities for
management of patient care and provide incentives for the appropriate use and
prudent purchase of supplies, since it would be nursing homes and not suppliers who
would receive Medicare reimbursement for these supplies.

AGENCY AND OUTSIDE ORGANIZATIONS’                  COMMENTS

We solicited and received comments on our draft reports from HCFA and other
concerned organizations. The organizations that provided us with responses were the
Health Industry Distributors Association (HIDA), the Health Industry Manufacturers
Association (HIMA), and the National Association for the Support of Long Term
Care (NASL). However, HIMA chose not to provide specific comments on this
report. The full text of the comments from HCFA and the outside organizations can
be found in a companion report entitled Questionable Medicare .Payrnents for Wound
Care Supplies (OEI-03-94-00790).   A summary of the comments and our response
follows.

HCFA cO17U?’WltS

 The HCFA agreed with the recommendations         in the companion report, Questionable
 Medicare Payments for Wound Care Supplies.      In addition, HCFA responded that they
 have developed a legislative proposal to require bundling of services, including wound
 care supplies, in Medicare and Medicaid payments to nursing homes. They believe
 that thfi ‘may serve as an incentive for nursing homes to more closely monitor the use
 of wound care supplies. The HCFA also provided us with a technical comment



                                            12

concerning the need to emphasize the difference between national and regional
coverage polices on wound care supplies.

Outw& OganLzations’ Comments

The organizations commented that they strongly support HCFAS expansion of the

national coverage policy for wound care supplies and that no reduction in the current

scope of the benefit should be considered. They believe that the DMERCS’ delay in

implementing wound care policies and utilization standards after HCFAS expansion of

the policy was the primary factor in creating an environment ripe for potential abusive

practices. While the organizations support the need for implementing DMERC

medical policies for wound care supplies that reflect current clinical practice, they also

believe that some of the utilization standards in the DMERC policy to be

implemented on October 1, 1995 are incorrect and need to be resolved before

implementation occurs. The NASL and HIMA also stated that the DMERC policy

prior to March 30, 1994 that we discuss in the background section of our report was

never fully implemented.


Both HIDA and NASL expressed concerns that our wound care surveys were

misleading and biased and unlikely to provide meaningful data. Nevertheless, they

both stated that the results of the sumeys show that the majority of suppliers and

facilities act responsibly in operating their businesses.


The HIDA responded that we incorrectly implied that legitimate market-driven

supplier services were inappropriate.    They reported that they provide critical

functions which hold down or eliminate costs the nursing facility would othenvise

incur. These services include billing/collection activities, bar code technology for order

processing and handling of supplies, delivery/transportation/inventory    management

activities, and value added services such as training on product availability an

appropriateness of clinical objectives.


OIG RESPONSE


While we believe the initial lack of DMERC policies without utilization standards for

wound care supplies played a part in allowing abuses to occur, we do not believe it to

be the entire cause of abusive supplier practices. Even without specific utilization

standards, suppliers are supposed to be able to support the medical necessity of the

wound care products they deliver. Some of the examples of questionable billings that

we encountered in our questionable Medicare payments report were not mere

misunderstandings of medical policies for wound care. For example, when suppliers

are billing for amounts large enough to purchase 12.5 miles of tape or 5 gallons of

hydrogel wound filler in a 6-month period this would fall out of even the most

generous clinical guidelines.


 We have made changes in the report to reflect the comments that HCFA made about

 clarifying the difference between national and local policies. We have also added



                                             13
                                                                               .-’�




additional language in the report to emphasize that during the phase-in of the

DMERCS, the previous carriers were still processing claims using their own policies.


In response to HIDA and NASL concerns that our surveys for this report were

misleading and biased, we believe that the questions in our survey were appropriate in

their wording. The Medicare beneficiary survey was designed to be easily understood

and completed by the sample population. We do not feel the questions were

misleading to beneficiaries nor were they intentionally designed to solicit biased or

untrue information.


The nursing home survey was designed to obtain comparable data from a large

number of respondents on a wide range of issues relating to wound care. We realize

that some of these issues are complex and nursing homes may have felt the need to

provide more detailed responses. Therefore, each facility had the option to complete

the “Additional Comments” section of the questionnaire if they felt additional

information was warranted. Many did use this option and also provided additional

information directly underneath many of the questions. This information was included

in our analysis of the data provided by the surveys. In addition, each nursing home

was afforded the opportunity to call our toll-free number if they had concerns or

needed clarification about the survey questions.


In response to HIDAs concerns that we were critical of legitimate services that

supplier perform on behalf of their customers, we believe that we presented the

information in a fair manner and did not draw conclusions that could not be

adequately supported. For many of the sen-ices that HIDA reported suppliers provide

to nursing homes, we did not collect information from nursing homes that would

enable us to evaluate these semices. We did, however, report that suppliers provide

training and technical assistance to nursing home staff. Information on the helpfulness

of this assistance is outlined in our report and includes both favorable and unfavorable

comments by nursing home staff.


We are by no means concluding in this report that all suppliers are involved in

questionable practices. In fact, we highlighted in our companion report on

questionable Medicare payments that three-quarters of the excessive payments we

identified in our sample were made to only 7 percent of all suppliers in the sample.

However, we do believe that some of the practices reported by nursing homes and

beneficiaries such as determining the number of supplies to be delivered and routinely

waiving coinsurance amounts raise concerns about the legitimacy of certain services

that suppliers provide.


We believe the data we received from the surveys was meaningful and presented a

broad picture of supplier and nursing home practices with regards to wound care

supplies, and provided useful information on Medicare beneficiaries use of these

supplies.





                                            14

                                                                            .   .’�




                           APPENDIX                  A


    NURSING FACILITY SURVEY INSTRUMENT                 AND RESPONSE       RATES

Each nursing home in our sample was asked to complete a 48 question survey. The
questions for the survey were developed by reviewing information on wound care
supplies produced by HCF~ the Durable Medical Equipment Regional Carriers,
wound care suppliers, and professional organizations.

For most questions, we report the percentage of nursing home responses to the
question and the projected number of responses. The percentages have been rounded
to the nearest whole number and therefore will not always add up to exactly 100
percent. The projected numbers have been rounded and will therefore not always add
up to exactly 9,770 nursing homes. In addition, for several questions respondents
selected more than one answer. These questions are identified by an asterisk in the
sample survey instrument that follows.

We also report the semi-width for each of the response percentages at the 95 percent
confidence level. The semi-width is the standard error of the projection multiplied by
1.96. The semi-width added or subtracted to the percentage provides a 95 percent
confidence interval. The range of the 95 percent confidence interval is presented in
the table following each question.

In the several questions where respondents were asked to provide numerical data
(e.g., number of beds or percentage of patients receiving wound care supplies), an
average number or percentage is provided. For questions where we requested textual
responses, a percentage of respondents who provided written responses is given.
In addition, when written responses were furnished, these questions were analyzed for
content and used in the report. However, due to the length of the responses, they are
not presented in this Appendix.

There are instances in the report where information from a subset of nursing homes
which used Medicare-reimbursed wound care supplies for patients is presented. These
data were developed by evaluating responses from just the 55 percent of nursing
homes (5,379 projected number of facilities) who answered “yes” to question six of the
survey- “are any of the surgical dressings or wound care supplies used for patients in
your nursing facility billed to Medicare Part B.”




                                         A-1

2.     How   many beds does your nursing facility contain?




        Number of Beds                                              137.1          *11.9




3.     How many patients are currently residing in your facility?




        Number of Patients                                          111.6           ~8.3




4.     What percentage of your population is eligible for Medicare Part B Coverage?




         Percent Eligible for Medicare Part B Coverage              84.3            *4.O



5.	    What percentage of your current patient population receive surgical dressings or wound care
       supplies (e.g. gauze, hydrogel or alginate dressings, wound pouches)?




        Percent of Patients Reeeiving Wound Care Supplies             10              +1.8




 6.	   Are any of the surgical dressings or wound care supplies used for patients in your nursing
       facility billed to Medicare Part B?




         Yes                                         55             *7.5            5380

         No                                          40             *7.4            3917
         No Response                                 5              *3.4              474




                                                  A-3

                                                                                                         ,..




7.	        Does your nursing facility directly bill Medicare Part B for wound care supplies or do              you have
           at least one external supplier who bills Medicare Part B directly for these supplies?
                                                                                                                1�
                                                                   1

                                                                       95% (btikdence      projected Nutdw
                       Response                     Rrcent.age                             of Nursing Homti
                                                                           Inteffaf

                                                        31                  *7. 1               3005
             Nursing Facility is sole supplier
                                                        45                  *7.5                4371
             At least one externalsupplier
                                                        19                   *5.9                1862
             Other (please specify)
                                                         5                   *3.2                532
             No Response




 8.         Do you have a wound care supplier that provides wound care products only to the
            Medicare-eligible patients in your facility?

                                                                        95,v. Confidence    projected NUOIbfZ
                        Response                     Percentage
                                                                            IttK?@@I        of Nursing IWIW

                                                         20                   *5.8                1944
              Yes
                                                         77                   *6.2                7491
              No
                                                             3                *2.7                 335
              No Response




      9.     How did your facility become aware of the suppliers you use?

                                                     PercentageR         95 ‘%Confidence     Projected Number
                          Response                                           Internal        ~b Ntming Homes

                                                             18                *6. 1               1723
               Through supplier advertisements
                                                             7                  *4.O                651
                Through supplier direct mail
                marketing
                                                             63                 *7.1                6182
                Through supplier
                representative/salespersonvisit
                                                             36                 *7.3                3511
                Other (please specify)
                                                        7             *3.3                           718
                No Response
               %more thart orte answerwas selectedby some respondents




                                                         A-4

Use of Wound Care Supplies


10.    Who initially identifies that a patient has a need for wound care supplies?




        Family Physician                            35               *7.2                 3393
                                                             I                I                  1
        Medical Director of Nursing                 8                *4.2                 808
        Facility
                                                                                                 1

        Supplier Representative                      1               *1.6                 134
                                           I                 1                I                  I
        Director of Nursing                         27               *6.6                 2662   ‘
                                           1                 1                r


        Nurse/Nursing Facility             I        66       I       *7.O     I           6457   II
        Attendant                          I                 I                I                  II
        Wound Care Specialist                        5               ~2.8                 487
        Contracted by Nursing Facility
        Other (please specify)
        No Response
                                           I
                                               0.2
                                                    13
                                                             I
                                                              +0.3
                                                                     *4.8
                                                                              I
                                                                                          1247
                                                                                           16
                                                                                                 II
                                                                                                 I
        more than one answer was selected by some respondents


11.    Who decides what specific supplies will be ordered for the patient?




         Family Physician                           61               k7.3                 5975
                                            1                I                    I

         Medical Director of Nursing                12               *5.O                 1157
         Facility
                                                                                  )
         Supplier Representative                     2               *2.2                 236
                                            ,                1                    I
         Director of Nursing                        25               k6.2                 2479
                                                                 I                i
         Nurse/Nursing   Facility                   36               k7.3                 3543
         Attendant
         Wound Care Specialist                      12               *4.9                 1158
         Contracted by Nursing Facility
         Inventoxy Supervisor                        3               *2.7                  333

         Other (please speci@)                       18              *5.8                 1726
                                               I                 1                    1


         No Response                             1             *1.5                        92
         more than one answer was selected by some respondents




                                                   A-5

                                                                                                                    . .




12.          How are the wound care supplies initially ordered?

                                                      I%rcentage”        95   ‘%0Confiden~        Projected ITumber
                           Response                                                               of Nursing Horn=
                                                                                Intemai

                                                          80                        ~6.O                  7802
               Nursing facility contacts supplier
                                                           6                        *3.5                   599
               Supplier is told of need when
               supplier representative or
               delivery person visits
                                                           4                        +2.7                   359
               Supplier suggests wound care
               supplies would be appropriate
               for certain patients
                                                           15                       *5.6                   1504
               Other (please specify)
                                                         2             *2.2                                 222
               NO Response
              * more than one answer was selected b y some respondents



 13.	         At which stages of a pressure ulcer, do you use Medicare-reimbursed                 wound care supplies on
              patients?

                                                       Percentage>        95 % Confidence          Projected Number
                            Respome                                                                   Nursing Wmm$
                                                                              Interval             Of




                                                               9                     ~4.6                    892
                Stage I
                                                            27                       *6.9                   2683
                Stage II
                                                            62                       *7.3                   6039
                Stage 111
                                                               48                    &7.5                   4644
                 Stage IV
                                                               20                    *6.O                    1937
                 Other (please specify)
                                                        10             *4.5                                  978
                No Response
               * more than one answer was selected by some respondents


      Suuulier Marketinl!Practices



      14.	      Have supplier representatives   ever tried to market their wound care products directly to
                patients?

                                                           Permntage           9S ~ Confidence          Pmjectecf Nunti
                              Response                                             Interval             of pliursipgHOOlm

                                                                    6                  *3.4                      541
                  Yes
                                                                   94                  *3.4                   9192
                  No
                                                                   0.4                     +0.4                   37
                  No Response

                                                           A-6
15.	    Have supplier representatives ever helped you determine which patients in your facility qualify
        for Medicare reimbursement of wound care supplies?




        IIYes                                I        31      I       *7.O    I            2992    II
                                             I        68      I       *7.1    I            6677    II
         No Response                                  1               +1.6                 102

16.	    Have supplier representatives ever attempted to help you determine which Medicare-eligible
        patients in your facility need various wound care supplies?




          Yes                                         32              *7.2                 3152

          No                                          67              *7.3                 6517

          No Response                                 1               *1.6                  102

17.	    Have supplier representatives ever attempted to help you determine if patients not eligible for
        Medicare need various wound care supplies?




          Yes                                         23              *6.5                 2252

          No                                          75              *6.7                 7331

          No Response                                  2              k2.2                  187    II

 18.	   Have you ever been offered inducements by suppliers such as free products to allow them to
        provide wound care supplies to your patients?




          Yes                                          13              *5.1                 1316
                                                                                  1
          No                                          85               *5.3                 8314
                                                 \                I               I
          No Response                                  1               *1.6                 141

         If yes, please describe the nature of such inducements.




           Provided Information                                                       91
           Did Not Provide Information                                                9


                                                     A-7
19.	   Has a supplier ever provided you with the necessary prescription forms to be filled out by
       facility’s physician or the patient’s family physician?


                  Rqwmse                           Percentage   [ 95 % Cotildence   Projected Number
                                                                      Interval    [ of Nursing Homes
        Yes                                           10                *4. 1             950

        No                                            89                *4.4              8685

        No Response                                    1                *1.6              135


20.	   Has a supplier ever filled out the prescription form and presented it to you for the physician’s
       signature?




         Yes                                           7
                                                                ,
                                                                        *3.7              688
                                                                                                       I
       IINo

         No Response
                                            I
                                                       91

                                                       2
                                                                I
                                                                        *4.1

                                                                        *1.7
                                                                                  I
                                                                                          8907

                                                                                          176
                                                                                                       I
21.	   Does the supplier representative decide the number of supplies to be delivered in a given
       month?




22.    Have you ever been told by a supplier that Medicare requires the use of certain types of




         Yes                                 ]81                         *4.O         I    796
         No                                            90                *4.5             8791
                                             ,                      I
         No Response                                    2                *2.2              184




                                                    A-8

                                                                                                     ,-




23.	    Have you ever been told by a supplier that Medicare requires the use of wound care ~                    on
        Medicare beneficiaries?


                   Response                      Fercentsge     95 % Confidence         Projected Number
                                                                    Intervsl            of Nursing Homes

         Yes                                        11                  *4.9                 1069

         No                                         88                  *5.1                 8568

         No Response                                 1                  *1.6                  134




24.	    Has a supplier ever told you that wound care supplies will be provided to Medicare
        beneficiaries at no cost to the patient?




          Yes                                        28                 *6.9                 2741
                                            I                                       1
          No                                         70                 *7.O                 6794
                                            I                                       I
          No Response                                2                  *2.2                  236




25.     Is the same basic wound care kit provided to every Medicare beneficiary in your nursing home?




        IIYes                                I       24         I        *6,5       I         2393         II
          No                                         56                  *7.5                 5489

          No Response                                19                  ~6.O                 1888




 26.	    Has a supplier ever suggested that a standard number of wound care trays or kits per day (e.g.
         three per day) should be used?


                    Response                      F’ercentage       95’% Confidence” Projected Number
                                                                        IIIteNat    .‘ of Nursing Homes

          Yes                                         12                 *4.9                 1173

          No                                         84                  *5.4                 8249

          No Response                                 4                  *2.7                  349




                                                  A-9

                                                                                              .-




27.    Have you ever been told by a supplier that Medicare will cover routine supplies such as saline
       solution if gauze or specialty dressings are purchased?

                                                                                                     I


                  Response                      Percentage    9596 Confidence   Projected Number
                                                                  Intezw        of Nursing I-Iomea

        Yes                                        11              *4.7               1037
        No                                         86              *5.3               8421

        No Response                                 3              *2.7               312




28.    Do your suppliers routinely waive the 20 percent copayment required of Medicare
       beneficiaries?


                  Reqxxtse                      Percentage   ‘ 95 % Contidewe   Projected Number
                                                                   Interval     of Nursing HouIes

         Yes                                        3              *2.3               279

         No                                         32             *7. 1              3127

         Do Not KItOW                               56              *7.5              5466

         No Response                                9              *4. 1               899




29.    Has a supplier ever provided a wound care specialist or specialty nurse to assist you in patient
       care or in developing a treatment plan?


                   Response                     Per+zrkage   “.95 ~ Confidence ~ Projected Number
                                                                   Interval    , of Nursing Homes

         Yes                                        36              *7.3              3519

         No                                         62              57.3              6075

         No Response                                 2              *1.7               177




 30.   Has a supplier ever offered training to your staff concerning the treatment and care of wounds?




         Yes                                        70              *6.8               6856
                                                                                                         >
         No                                         28              *6.6               2693

         No Response                                 2              *2.2               222




                                                A-10





                                                                                      ——
                                                                                                           . .




31.	      How does your staff become aware of new wound care products that might benefit your
          patients?

                                                         Percentage”    957. Confidence    Projected Number
                        Response                                                           of Nursing Homes
                                                                            Interval

                                                             67              *6.9                  6561
           Through      supplier   representatives
                                                             45              *7.5                  4383
            Traininfj/Conferen@s        offered by
            suppliers
                                                             62              *7.4                  6016
            Medical journalsfliterature
                                                             48               *7.5                 4661
            Training provided by
            medical/nursing associations
                                                             23               *6.4                 2250
            Other (please specify)
                                                     1             *0.6                             80
             No Response
           * more than one answer was selected by some respondents


 32.       Have supplier representatives         ever requested to review patient medical records?

                                                           Percentage    95 9ZZ
                                                                              C@uliden~      Projecied Numb
                         Response                                                            of Numbg:Hcmes
                                                                             Interval ..

                                                                  19           *6.O                 1878
             Yes
                                                                  80           *6.O                 7818
             No
                                                                  1            *0.6                  75
             No Response

            If yes, for what reason?

                                                                                           Ekmettiage
            I                           Rqcm$e
                                                                                              95
                Provided Information
                                                                                               5
                Did Not Provide Information


   33.	     Have supplier representatives ever suggested how medical records should be documented                to
            support the need for wound care supplies?




                                                             A-n



                                                                                                                      —.
34.    How many different suppliers provide you with wound care supplies for your patients?




        Number of Suppliers                                          1.7               *0.2
                                                                                              )



35.	   Please list the names, addresses, and phone numbers of the suppliers who provide your facility
       with the majority of wound care supplies for your patients?




       IIProvided Information

         Did Not Provide Information

                                                                                  76
                                                                                  24
                                                                                              I

36.    Are wound care supplies marketed to you in kits or as bulk supplies?




         Both Kits and Bulk Supplies
             35              *7.3                 3394
         Wound Care Kits
                         10              *3.9                 947

         Bulk Supplies
                           37              *7.4                 3697

         Other (please specify)
                   9              *4.5                 902

         No Response
                              9              *4.O                 831


37.    Are wound care supplies shipped to you in kit or bulk form?




         Both Kits and Bulk Supplies              28              *6.9                 2774
                                           I                                  ,
         Wound Care Kits                           8              *3.6                 777

         Bulk Supplies                             45             k7.5                 4437
                                           1


         Other (please specify)                    8              *4.2                  786
                                           1
         No Response                               10              *4.3                 996




                                                A-12

                                                                                                       .“




38.	    When delivered by the supplier, are wound care kits or supplies marked or identified as being
        intended solely for a particular patient?




        IIYes                                 ,
                                                        36
                                                               1
                                                                              *7.3
                                                                                      I
                                                                                               3564
                                                                                                            I
          No
                                              I
                                                        53
                                                               i
                                                                              *7.5
                                                                                      I
                                                                                               5201
                                                                                                            I
         No Response                                    10                    *4.3             1006         1
39.     If suppliers market or ship wound care kits to your facility, what suppIies are typically
        contained in a kit?




        1!Provided Information

          Did Not Provide Information
                                                                      1
                                                                                          78

                                                                                          22
                                                                                                            I
                                                                                                            I


40.     If suppliers market or ship wound care kits to your facility, do you typically use all of the
        supplies within those kits?

                                                                                                            1
                    Res~nse                       Percentage       95 % Confidence !-Projected Nu&ber
                                                                       InttxVd     . ‘ofl!hu,-sing”~,cimes

          Yes                                           32                    *7.O             3140

          No                                            15                    *5.4             1481

          No Response                                   53                    *7.5             5150

         If no, what supplies are typically not used?




         11
          Provided Information
          Did Not Provide Information
                                                                          I
                                                                                          45
                                                                                          55
                                                                                                                I
                                                                                                                II

 41.	    Have you ever asked a supplier to make equipment changes, such as removal or addition of
         products, in their standard wound care kit?




           Yes                                           16                    *5.7             1536
           No                                            57                    *7.5             5571
           No Response                                   27                    *6.7             2663



                                                   A-13
                                                                                             . .




       If yes, what changes did you request?




       11
        Provided Information

        Did Not Provide Information
                                                                I
                                                                             91

                                                                                9
                                                                                                    1
                                                                                                   II

       If yes, did the supplier make the changes?




        Yes                                          14             *5.4             1334

         No                                           3             *2.6             276

         No Response                                 84             *5.8             8145

42.	   Do suppliers provide you with all the necessary wound care supplies for each patient once a
       month?




         Yes                                          40            *7.4             3868

         No                                           37            *7.3             3622

         No Response                                  23            *6.4             2280

       If no, how are supplies provided by the supplier?




         Provided Information                                                   73

         Did Not Provide Information                                            27

43.     How are wound care supplies stored in your nursing facility?




        !1Stored by individual patient         !      27    I       *6.8    I        2651           II
        IIassignment in supply room
                                                            1               I                           1
        IIStored by the patient’s bedside
          Stored in general supply room               67            *7. 1
                                                                            1
                                                                                     6563

        I Other (please specifi)                      2
                                                            ,
                                                                    *2.2
                                                                            \
                                                                                      181
                                                                                                    II
          No Response                             5
                                                      11            *4.7

                                                                *3. 1
                                                                            I
                                                                                      1049
                                                                                      513
                                                                                                     I
          more than one answer was selected by some respondents


                                                    A-14
                                                                                         .-




44.     What happens to unused or excess supplies?




         Returned   to supplier                     32           k7. 1           3082

         Stored for future use by specific     !    24           k6.6            2326
         patient

         Stored and used as needed for              33           *7.O            3257
         all patients

          Other (please specify)                     13          *4.9            1284

          No Response                            10             *4.3             974          I
                                           I
          more than one answer was selectel by some respondents



45.     Have you ever received wound care supplies that were not ordered?




 46.	    Do you know if Medicare limits the maximum amount of wound care suppIies allowable for
         payment each month per patient?




          Yes                                         19             *6.2         1875

          No                                          71             *6.9         6957

           No Response                                10             *4.3         938

         If yes, please describe the limits.




         IIProvided Information
           Did Not Provide Information
                                                                 1
                                                                            51

                                                                            49




                                                   A-15





                                                                                    —.
                                                                                                                   . .




47.       Do you have written         or verbal agreements     with your wound   care suppliers?


                                                             Percentage   95 % Confidence    Projected NU@JW
                        Response                                                                Nursing Homes
                                                                              Interval:      Of




                                                                25               *6.6                   2430
            Yes (written)
                                                                 6               *3.2                       587
            Yes (verbal)
                                                                 58              k7.4                       5710
            No
                                                                 11              *4.7                       1044
            No Response


           If yes, please describe the nature of such agreements.
                                                                                                                         -1
                                                                                            Fercent~~e
                                          Response
                                                                                                  68
             Provided       Information
                                                                                                  32
             Did Not Provide         Information




 48.        Have you ever complained to Medicare or other authorities about the marketing or business
            practices of any wound care suppliers?




             If yes, what was the nature of these practices?

                                                                                             Percentage”
                                            Response
                                                                                                   90
                 Provided     Information
                                                                                                       10                     I
                 Did Not Provide          Information




      Thank you for completing thti survey, If you have additional comments or would like to answer any of the
      questions more fully, please use the nextpage marked Additional Comments for this purpose. Please return
      the survey in the self-addresse4 postage-paid envelopewe included in our mailing to you or fix the SUYWY
      and any additional information to us at (215) 596-6987.



                                                                 A-16

                            APPENDIX                 B


       BENEFICL%RY SURVEY INSTRUMENT                AND RESPONSE       RATES

Medicare beneficiaries in our sample were asked to complete a 19 question survey.
The answers to these questions provided information on the beneficiaries’ type of
wound, the treatment of the wound, and the use of Medicare-reimbursed wound care
supplies.

For the questions, we report the percentage of beneficiary responses to the question
and the projected number of responses. The percentages have been rounded to the
nearest whole number and therefore will not always add up to exactly 100 percent.
The projected numbers have been rounded and will therefore not always add up to
exactly 31,871 beneficiaries.

We also report the semi-width for each of the response percentages at the 95 percent
confidence level. The semi-width is the standard error of the projection multiplied by
1.96. The semi-width added or subtracted to the percentage provides a 95 percent
confidence interval. The range of the 95 percent confidence interval is presented in
the table following each question.

The sample survey instrument with results begins on the next page.




                                         B-1



                                                                                       _—
MEDICARE          BENEFICIARY              SURVEY             FOR SURGICAL                    DRESSINGS


Our records show that between _       and _    Medicare paid $      for surgical
dressing/wound care supplies on your behalf.’ Surgical dressing and wound care
supplies are used for wounds such as surgical incisions and bed sores/pressure ulcers.
Surgical dressings and wound care supplies include gauze, tape, wound pouches,
specialty dressings, and other products.

Please answer the following questions.          If you have any problems or questions, please
call Linda Ragone at 1-800-531-9562.


1.	    Did you receive surgical dressingshvound care supplies during the time period mentioned
       above?




        Yes                                           93                *3.4                 29,543
                                                                                                             I
        No
                                            1
                                                      2
                                                               I
                                                                        *2.O
                                                                                     I
                                                                                               7’42
                                                                                                             I
       !1
        Do Not KXIOW
                                            1
                                                      4
                                                               I
                                                                        *2.6
                                                                                     I
                                                                                              1,338
                                                                                               248
                                                                                                             I
        No Response                                   1                 *1.1                                 II


2.     Did a doctor tell you to get these supplies?




        Yes                                           77                *5.4                 24,686

         No                                           11                *4. 1                 3,467

         Do Not KIIOW                                 10                *3.8                  3,173

         No Response                                  2                 kL7                    545


3.     Did the supplies come packaged in a plastic tray or kit?


                   Reapcxke                      Percentage        95 ‘%Crmfidentx       Pmjec$Ed Number
                                                                       M3rvat             of Beneficiaries

         Yes                                          54                *6.4                  17,205

         No                                           20                *5.2                  6,285

         Do Not KIIOW                                 25                *5.5                  7,837

         No Response                                   2                *1.7                   545




                                                  B-2

4.    Were there any types of supplies that you received that you did not need for your wound?




       No                                           79                 *5.2                25,025
                                             ,                I                                            11


       Do Not ~OW                                    16                *4.6                 4,960

       No Response                                   2                 *1.7                  597


5.    What portion of the supplies that you reeeived did you actually use?



                 Respcmw                         Percentage       95 % Qmfikkrwe       Projected Number
                                                                      Interval          of. Bessefkiarks

       All                                           72                 *5.7                23,093

        Some                                         8                  *3.5                2,628

        None                                         3                  k2.o                 845

        Do Not KllOW                                 15                 *4.5                4,660

        Not Answered                                 2                  *1.8                 645

6.    Were you a resident   of a nursing   home during the time period         mentioned   above?


                 Response                        Pmx!ntage        95. % Con fidtxstx   lkojecced Number
                                                                       Interval          0113enefidarie$

        Yes                                          41                 *6.O                12,961

        No                                           58                 *6.O                18,513

        Do Not KXIOW                                  1                 *1.3                  297

        No Response                                  0.3                +0.6                  100


 7.    Were you receiving services from a home health agency (such as a visiting nurse) during the
       time period mentioned above?




        Yes                                           38                 *6.3                12,183

        No                                            59                 *6.4                18,695

       IIDo Not KllOW                                    1               *1.4                 397
                                                                                                                1
        No Response                                      2               *1.7                  597




                                                  B-3

                                                                                           . .




8.    What type of wound did you have that required these supplies?


                 Response                    Percentage    95 % Gmfidence   Projected Number
                                                               Interval      of 13enefkiaries

       Wound From Surgery                        30             *5.9             9,410

       Bed Sore/Pressure    Ulcer                43             ~6.O             13,755

       None                                       1             *1.6              445

       Do Not KItOW                              3              *2.4              1,038

       Other (specify)                           28             *5.8             8,965

       No Response                                4             *2.7              1,387




9.    How many different wound areas required treatment with these supplies?




       Number of Areas                                             1.6             *O.18




10.   On what area(s) of the body was your wound(s)




        Chest/Stomach
                            19             k5. 1            5,940

        Back/Buttocks
                           24              *5.2             7,750

        Leg
                                      27             *5.7             8,620

        Foot
                                     32             *5.9             10,220

        Arm/Hand
                                 8              *3.3             2,635

        None
                                      1             *1.6              445

        Do Not   KIIOW                            3              *2. 1              842

        Other (speci&)                            17             *4.8             5,505

        No Response                             3                *2.2               942          I
        more than one answer was selected by some respondents




                                               B-4

                                                                                        .. -




11.    Who decided what kind of dressing or wound treatment supplies you would need?




12.    How many times per dayhveek was the dressing changed?




        Number of Changes per Week                                 8.8          +0.98          II


 13.    Who changed the dressings on your wound(s)?




         Home Health/Visiting   Nurse            30               *5.9          9,658

         Physician                                7               *3.3          2,232
                                                                                               I
         Nursing Home Staff                      33               *5.7         10,382
                                                                                               !
         Wound Care Product Supplier             0.3              *0.6           100

          Relative/Friend                         19              *5.1          6,092

          Myself                                  20              +5.2          6,530

          Do Not WOW                              3               *2.2           942
                                                          I
          Other (speeify)                         8               *3.6          2,625
                                                                                                I
          No Response                             2               *1.9           693
          more than one answer was selected by some respondents




                                               B-5

                                                                                                                   ..



                                                                                                                              2
14.         For how long a period of time did you use the supplies (please answer in days, for example,
            months would be 60 days)?

                                                                                 Average        % % Confidence
                                      Response                                                          Interval

                                                                                  147.9                  *32.7
             Number of Days

15.         Did you receive supplies after your wound was healed?

                                                                            95 % Confidence     prajected Numbfl
                           Response                      Percentage
                                                                                IntervaI         of Bene@*

                                                                6                +3.0                   1,883
              Yes
                                                               71                 *5.9                 22,506
              No
                                                               10                 ~3.8                  3,125
               DO Not KnOw
                                                                14                *4.5                  4,357
               No Response




  16.        Did you pay coinsuranu for the surgical dressingsh’ound care supplies reeeived during the
             time period mentioned above? (Coinsuranm is the 20 percent of the bill or Medicare allowed
             amount that you pay the supplier.)

                                                             Percentage      9S % Confidena         I?mjee[ed Number
                            m.qxmse                                              Intervai             of Benefieiarki


                                                                 32                +6.0                  10,155
                Yes
                                                                 48                *6.4                  15,270
                No                                                                              I                        11
                                                                    16             *4.6                   5,012
                DO      Not KxIOw
                                                                                   *2.7                    1.435
                                                                                                           _, .-.
                No Response
                                                                    5                                                    II




                                                               did you have any other insurance           which would have
      17.      If you answered no to previous    question,
               paid the coinsuranm  for you?

                                                              Percentage       957. Confiden@        Proj-ed  Number
                              Response                                                                of Ben&iciax’ieS
                                                                                   IntetWd

                                                                                    ~8.4                    6,292
                                                                     37
                 Yes
                                                                     56              *8.7                   9,623
                   No
                                                                        8            24.5                   1,290
                   DO    Not KtlOw




                                                                B-6

18.    Who filled out this survey?


                     Reapottae                 Percentage    95 % Cmfidtvme      Projected Number
                                                                    rmcNaf        of Btmeficiariea

         I Filled It Out Myself                    40                 *6.3            12,776

         Someone Filled It Out For Me              58                 ~6.3            18,401

         No Response                                2                 *1.9             693




19.    If someone filled out the survey for you, who are they?



                     Response                   Percxwlge        95 % CMidence   Projected Number
                                                                     Mervaf       of Beneficiadea

         Relative
                                 38                 *6.2            12,148

         Nursing Home Employee
                    10                 *3.7             3,228

         Friend
                                    3                 *2.2              942

         Home Health Nurse or Aide
                33                 *2.4             1,090

         Other (specify)
                           7                 *3.3             2,180

         No Response
                              39                 *6.3            12,283




Thank you for completing this survey. If you have additional comments, please write them under
Additional Comments. Please return the survey in the self-address@postage-paidenvelope we
includedin our mailingto you.


ADDITIONALCOMMENTS:




                                                 B-7

